u

CERTIFICATION OF SERVICE
I hereby certify that 1 unbound and 10 copies of the foregoing Petition
for Writ of Certiorari in Sascha Lynch v. Mien Y. Chao, et al., were sent via
United States First Class Priority Mail pursuant to Rule 29 filing
instructions to the U.S. Supreme Court, and one copy each was sent via first
class mail, postage prepaid to the following parties listed below, this 29th day
of October, 2020:
Patrick J. Gregory, Esq.
Shook, Hardy & Bacon, L.L.P.
One Montgomery, Suite 2700
San Francisco, CA 94104-4505
Counsel for Respondents Allen Y. Chao, PhD., Searle Pharmaceuticals, Inc.,
Searle Laboratories, G.D. Searle LLC, G.D. Searle & Co., Pfizer, Inc.,
Pharmacia Corporation, Monsanto Company, and AmerisourceBergen
Corporation
Email: PGREGORY@shb.com
Erin Bosnian, Esq.
Morrison & Forester
12531 High Bluff Drive, Suite 100
San Diego, CA 92130
Counsel for Respondent McKesson Corporation
Email: EBosman@mofo.com
/

By.

'n(J^
Sascha Lynch
timeless2t@gmail.com

